           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       PUERTO RICO DISABILITY
      DETERMINATION PROGRAM

      June 2012   A-06-11-01132




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      June 21, 2012                                                     Refer To:

To:        Beatrice Disman
           Regional Commissioner
            New York

From:      Inspector General

Subject:   Puerto Rico Disability Determination Program (A-06-11-01132)


           OBJECTIVE
           For our audit of Federal Fiscal Year (FY) 2008 through 2010 administrative costs
           claimed by the Puerto Rico Disability Determination Program (PR-DDP), our objectives
           were to determine whether

           •   PR-DDP administrative costs claimed were allowable, supported, and accurately
               reported;

           •   indirect costs were valid and allowable; and

           •   PR-DDP’s parent agency, the Puerto Rico Department of the Family (PR-DF),
               established a timeframe for resuming full responsibility for the issuance of PR-DDP
               administrative expense-related payments.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs. DDSs must perform
           such determinations in accordance with Federal law and regulations. 1 Each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations.

           To make proper disability determinations, SSA authorizes each DDS to purchase
           medical examinations, x rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants’ physicians or other treating sources.
           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et seq. and
           416.1001, et seq.
Page 2 - Beatrice Disman


SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization, based on a State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513). (See Appendix B for additional background,
scope, and methodology.)

We initiated this audit at the request of SSA’s Office of Disability Determinations staff,
which stated that in FY 2008, PR-DF stopped paying PR-DDP medical consultants. To
prevent the loss of these services, in December 2008, SSA’s Office of Finance
assumed responsibility for paying PR-DDP’s medical consultants. Since that time, the
Office of Finance has assumed responsibility for paying other PR-DDP expenses, which
totaled approximately $6.7 million in FY 2010.

RESULTS OF REVIEW
PR-DDP administrative costs were generally allowable. However, PR-DF could not
provide documentation supporting the validity of approximately $2 million in unliquidated
obligations 2 or reconcile approximately $61,000 in reported disbursements. In addition,
contradictory SSA policy allowed PR-DDP to charge about $55,000 in indirect costs
through inclusion of some medical-related costs in the indirect cost base. Finally, in
April 2012, SSA returned responsibility for processing some payments to PR-DF. If
PR-DF demonstrates it can make timely and accurate payments for these services,
SSA plans to return full payment responsibility by September 2012.

UNSUPPORTED UNLIQUIDATED OBLIGATIONS

PR-DF could not support approximately $2 million in unliquidated obligations reported
on Forms SSA-4513.

                       Table 1: Unsupported Unliquidated Obligations
                                Amount               Amount               Amount
                                        3                    4                      5
                   FY          Reported            Supported            Unsupported
                  2008           $267,763             $3,568               $264,195
                  2009           $461,524           $243,706               $217,818
                  2010         $2,056,800           $533,244             $1,523,556
                  Total        $2,786,087           $780,518             $2,005,569




2
    Unliquidated obligations represent obligations for which payment has not been made.
3
    Unliquidated obligation balances reported for FYs 2008 through 2010 were as of March 2011.
4
    Amounts represent unpaid indirect costs claimed on Forms SSA-4513.
5
 Forms SSA-4513 submitted to SSA after completion of our audit fieldwork indicated that PR-DDP
deobligated approximately $1.5 million of the unsupported unliquidated obligations.
Page 3 - Beatrice Disman


SSA policy states that valid unliquidated obligations should be supported by
documents/records that describe the nature of the obligations and support the amounts
recorded. 6 SSA policy also provides that State agencies should review unliquidated
obligations at least once each month to cancel those that are no longer valid and screen
consultative examination authorizations to determine whether the unliquidated
obligation represents an authorization still in effect. 7 The PR-DDP officials stated they
did not review unliquidated obligations monthly.

PR-DDP could not support unliquidated obligations primarily because PR-DF
accounting staff did not reduce unliquidated obligation amounts to reflect SSA Office of
Finance disbursements made for PR-DDP. PR-DF accounting staff acknowledged they
did not reduce unliquidated obligation balances to reflect payments SSA made without
written notification from PR-DDP.

DISBURSEMENTS LESS THAN AMOUNTS CLAIMED ON FORM SSA-4513

PR-DDP could not provide documentation to support approximately $61,000 in
disbursements reported on Form SSA-4513. PR-DDP reports disbursements on two
Forms SSA-4513: one for payments issued by PR-DF, and one for payments issued by
SSA’s Office of Finance (referred to as the Form SSA-4513 addendum). The Office of
Finance provided transaction details for all payments it issued on PR-DDP’s behalf. We
attempted to reconcile the payments with disbursements reported on the Form SSA-
4513 addendum. As shown in Table 2, disbursements reported for FYs 2008 through
2010 exceeded the value of the Office of Finance’s payments by about $61,000.

          Table 2: Office of Finance PR-DDP Administrative Cost Disbursements
                           Reported on Form     Disbursements Per
                              SSA-4513            SSA's Office of
            Fiscal Year       Addendum               Finance         Difference
               2008              $375,030            $339,011          $36,019
               2009            $5,371,626          $5,408,037         ($36,411)
               2010            $6,683,356          $6,622,288          $61,068
               Total          $12,430,012         $12,369,336          $60,676

SSA’s Office of Finance accounting staff stated they previously identified instances
where they erroneously reported disbursements in the incorrect FY, and they may not
have identified and corrected all errors.




6
    SSA, POMS, DI 39506.203 (March 12, 2002).
7
    Id.
Page 4 - Beatrice Disman


MEDICAL-RELATED COSTS INCLUDED IN DIRECT COST BASE

SSA generally reimbursed PR-DDP for indirect costs in accordance with the approved
indirect cost rate agreements. However, we determined that contradictory language in
SSA policy allowed PR-DDP to include some medical costs in its direct cost base,
resulting in about $55,000 in additional indirect cost reimbursements from SSA.

The PR-DDP indirect cost rate agreement states that the ". . . total direct cost base to
which the indirect cost rate is applied excludes . . . medical costs for (a) Consultative
Examinations (CEs) and (b) Medical Evidence of Record (MER)." 8 SSA policy states
“Medical costs reflect the total costs incurred for the purchase of consultative
examinations (CE) and medical evidence of records (MER) for all SSA disability
programs. . . .”9 However, the same SSA policy also states that “. . . If . . . the DDS
contracts out the functions of copying reports, these copies are ‘contracting out’
costs.” 10

As illustrated in Table 3, PR-DDP classified the MER-related expenditures as contract
costs, included the costs in the direct cost base, and applied the applicable indirect cost
rate to the expenditures.

              Table 3: Indirect Costs Paid for MER Claimed as Contracted Costs
                                           MER Claimed as
               FY         Rate Period                      11      Rate     Indirect Costs Paid
                                          Contracted Costs
                          October 2007-
                2008                             $78,075          12.5%           $9,759
                             June 2008
                             July 2008-
                2008                             $45,255          14.0%           $6,336
                        September 2008
                          October 2008-
                2009                            $120,255          14.0%          $16,836
                        September 2009
                          October 2009-
                2010                            $154,695          14.0%          $21,657
                        September 2010
           Total Paid                           $398,280                         $54,588

SSA Office of Disability Determination staff stated this was the first case they had seen
where a DDS contracted out MER copying expenses and applied indirect costs to the
amounts paid. Wider application of this procurement method by other DDSs could
result in higher overall indirect cost expenditures.

8
 State and Local Rate Agreement between the Commonwealth of Puerto Rico – Department of the
Family and the Department of Health and Human Services, approved November 6, 2008.
9
    SSA, POMS, DI 39506.210 D.2 (March 12, 2002).
10
     Id.
11
  Costs refer to amounts PR-DF paid a specific vendor to obtain and provide MER copies. We
determined that PR-DDP correctly classified other MER-related expenditures as Medical Costs not
subject to application of indirect costs.
Page 5 - Beatrice Disman


In March 2012, the Office of Disability Determination and New York Regional staffs met
to discuss this issue. Agency staff had reservations regarding the impact this issue had
on the indirect cost base and the reporting of medical costs. Agency staff also agreed
that SSA policies, as written, were contradictory and allowed DDSs to classify MER-
related expenditures as contracted expenses but not report the full amount of medical
costs on the medical cost line.

The Office of Disability Determination informed us it would review current policies and
provide clear guidance on where DDSs should report medical costs on Forms SSA-
4513. Office of Disability Determination officials also stated they will ask the PR-DF to
remove “contracting out” costs associated with the procurement of MER from the next
annual indirect cost agreement negotiations.

RESUMPTION OF ADMINISTRATIVE EXPENSE PAYMENT RESPONSIBILITY

In FY 2006, the Puerto Rico Treasury Department changed its funding practices, which
resulted in payment delays to PR-DDP physicians and vendors. The payment delays
affected PR-DDP’s ability to provide timely service to disabled residents of Puerto Rico.
To ensure continued services, effective December 2008, SSA assumed responsibility
for payments to PR-DDP medical consultants, CE providers, and certain MER
providers. In FY 2009, SSA assumed responsibility for additional PR-DDP non-
personnel cost. 12

In July 2009, PR-DF officials informed SSA that the Puerto Rico Treasury Department
had taken action regarding federally funded agencies and ordered immediate
processing and release of payments. As a result, the PR-DF requested permission to
resume full responsibility for payment of PR-DDP administrative costs.

SSA was reluctant to relinquish payment responsibility to PR-DF without concrete
details of the “. . .action [taken] regarding federally funded agencies.” In August 2009,
SSA requested that PR-DF provide an action plan, including details of any directives
issued to the Puerto Rico Treasury Department as well as a description of the
enforcement mechanism used if these procedures were not followed.

In November 2011, PR-DF provided the New York Region a draft action plan stating its
commitment to providing timely payments to suppliers. Between December 2011 and
March 2012, the New York Region and PR-DF revised and clarified the action plan.

Effective April 1, 2012, PR-DF resumed processing all payments related to Electronic
Data Processing Maintenance, Miscellaneous (Parking), and Other Costs (Occupancy,
Utilities, and Contracting Out of MER Retrieval Service). A New York Region official
stated that SSA will evaluate payment performance. If PR-DF demonstrates it can
make timely and accurate payments for these services, SSA plans to return
responsibility for Personnel Costs (Medical Consultants) in July 2012 and Medical Costs
(Consultative Examinations) in September 2012.
12
     In FY 2010, SSA paid directly approximately $6.7 million of PR-DDP administrative cost expenses.
Page 6 - Beatrice Disman


CONCLUSION AND RECOMMENDATIONS
PR-DDP administrative costs were generally allowable. However, PR-DDP could not
provide documentation to support the validity of approximately $2 million in unliquidated
obligations or reconcile $61,000 in disbursements reported on Forms SSA-4513. SSA
generally reimbursed indirect costs in accordance with approved indirect cost rate
agreements; however, inconsistencies in SSA policy allowed PR-DDP to apply indirect
costs to some medical-related expenditures, resulting in approximately $55,000 in
additional indirect costs. Finally, SSA has been working since August 2009 to return
responsibility for PR-DDP administrative expense payments to PR-DF. In April 2012,
PR-DF resumed responsibility for processing some additional payments. If PR-DF
demonstrates it can timely and accurately pay for these services, SSA plans to return
full payment responsibility by September 2012.

We recommend that:

1. PR-DDP review unliquidated obligations at least once each month and deobligate
   balances that are no longer valid or supported.

2. PR-DDP and PR-DF maintain support of unliquidated obligations that describes the
   nature of each unliquidated obligation and supports the amounts recorded.

3. PR-DDP work with SSA’s Office of Finance to reconcile the disbursement details
   with PR-DDP fiscal ledgers used for reporting purposes and, if appropriate, reduce
   Form SSA-4513 disbursements by $60,676.

AGENCY COMMENTS
SSA agreed with the recommendations. PR-DF also provided comments. See
Appendices D and E for the full texts of SSA and PR-DF’s comments, respectively.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513, State Agency
             Report of Obligations for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – Puerto Rico Department of the Family Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
CE              Consultative Examination
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Service
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
MER             Medical Evidence of Record
POMS            Program Operations Manual System
PR-DDP          Puerto Rico Disability Determination Program
PR-DF           Puerto Rico Department of the Family
SSA             Social Security Administration
U.S.C.          United States Code
                                                                    Appendix B

Scope and Methodology
SCOPE

We identified and reviewed the administrative costs the Puerto Rico Disability
Determination Program (PR-DDP) reported to the Social Security Administration (SSA)
on the State Agency Report of Obligations for SSA Disability Programs (Form
SSA-4513) for the period October 1, 2007 through September 30, 2010.

To accomplish our audit objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of SSA’s Program
    Operations Manual System, and other instructions pertaining to administrative costs
    incurred by PR-DDP and the drawdown of SSA funds.

•   Obtained data from Puerto Rico’s Department of the Family (PR-DF), PR-DDP, and
    SSA to support amounts reported on Forms SSA-4513 for Fiscal Years (FY) 2008
    through 2010. We tested the reliability of the data by comparing disbursements, by
    category and in total, with amounts reported on the SSA-4513.

•   Compared the amount of Federal funds drawn for support of program operations to
    the total expenditures on Form SSA-4513.

•   Interviewed staff from SSA, PR-DF, and PR-DDP.

•   Documented our understanding of PR-DF’s system of internal controls over the
    accounting and reporting of administrative costs.

•   Selected a random sample of Personnel, Medical Consultant, and Medical costs.

     Reviewed a sample of 25 employees from 1 pay period in April 2010 and traced
      information to accounting records, timesheets, and personnel files.

     Selected all 25 PR-DDP medical consultants paid during the March 2010 pay
      period to determine whether the consultants were licensed and payments to the
      consultants complied with the terms of their employment contract.

     Sampled medical cost payments for Medical Evidence of Record payments and
      reviewed a batch with the highest amount paid for FY 2010.

     Sampled medical cost payments for consultative examination payments and
      reviewed a batch with the highest amount paid in FY 2010.



                                          B-1
•   Evaluated the indirect cost rates claimed by PR-DDP for FYs 2008 through 2010
    and the corresponding indirect cost rate agreements.

The electronic data we used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We conducted our fieldwork from June through January 2012 at PR-DF and PR-DDP in
San Juan, Puerto Rico, and the Office of Audit in Dallas, Texas. We conducted our
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

METHODOLOGY

Our sampling methodology encompassed Personnel and Medical costs, as reported on
Forms SSA-4513. We obtained computerized data from PR-DF for FY 2010 to use in
statistical sampling.

Personnel Costs

We sampled 25 employee salary items from 1 randomly selected pay period in
FY 2010. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure PR-DDP correctly paid employees
and adequately documented these payments.

We also selected all PR-DDP medical consultants paid during the randomly selected
pay period in FY 2010. We determined whether sampled costs were reimbursed
properly and ensured the selected medical consultants were licensed.

Medical Costs

We sampled 50 medical evidence and consultative examination records from FY 2010
using a proportional random sample. We determined whether sampled costs were
properly reimbursed.




                                          B-2
                                                     Appendix C

Schedule of Total Costs Reported on Forms
SSA-4513, State Agency Report of Obligations
for SSA Disability Programs

          Puerto Rico Disability Determination Program
                             FY 2008
                                   UNLIQUIDATED       TOTAL
REPORTING ITEMS   DISBURSEMENTS    OBLIGATIONS     OBLIGATIONS
   Personnel         $7,905,008            $0        $7,905,008
   Medical           $3,376,880       $39,126        $3,416,006
   Indirect          $1,172,212        $3,568        $1,175,780
   All Other         $1,534,191      $225,069        $1,759,260
   TOTAL            $13,988,291      $267,763       $14,256,054
                             FY 2009
                                   UNLIQUIDATED       TOTAL
REPORTING ITEMS   DISBURSEMENTS    OBLIGATIONS     OBLIGATIONS
   Personnel         $7,899,903            $0        $7,899,903
   Medical           $3,543,181      $146,897        $3,690,078
   Indirect            $756,107      $243,706          $999,813
   All Other         $1,710,991       $70,921        $1,781,912
   TOTAL            $13,910,182      $461,524       $14,371,706
                             FY 2010
                                   UNLIQUIDATED       TOTAL
REPORTING ITEMS   DISBURSEMENTS    OBLIGATIONS     OBLIGATIONS
   Personnel         $7,550,821         $5,257       $7,556,078
   Medical           $4,028,721     $1,373,387       $5,402,108
   Indirect            $328,135       $533,244         $861,379
   All Other         $1,527,298       $144,912       $1,672,210
   TOTAL            $13,434,975     $2,056,800      $15,491,775
                  Appendix D

Agency Comments
                                   SOCIAL SECURITY
MEMORANDUM                                                        Refer To:

Date:      May 23, 2012

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Regional Commissioner
           New York

Subject: Puerto Rico Disability Determination Program (A-06-11-01132)


The New York Region appreciates the opportunity to comment on the draft report to determine
whether the Puerto Rico Disability Determination Program (PR-DDP) administrative costs claimed
were valid, supported, and accurately reported.

The three (3) recommendations for SSA included in your draft audit of this review are:

   1. SSA should instruct the Puerto Rico Disability Determination Program (PR DDP) to review
      unliquidated obligations at least once each month and deobligate balances that are no longer
      valid or supported. (Questioned Costs $2,005,569)

   2. SSA should instruct the PR-DDP and the PR-DF to maintain support of unliquidated
      obligations that describe the nature of each unliquidated obligation and supports the amount
      recorded

   3. SSA will instruct the PR DDP to work with SSA’s Office of Finance to reconcile the
      disbursement details with the PR DDP fiscal ledgers used for reporting purposes and, if
      appropriate, reduce Form SSA 4513 disbursements by $60,676.


The recommendations cited appear to be reasonable and justifiable. Based on the results of the
review, it is apparent that the PRDF continues to demonstrate its inability to manage the fiscal
operation of the Puerto Rico Disability Determination program and its noncompliance with federal
standards.

Since December of 2009, the region and the NY Center for Disability (NYCD) has requested
corrective action on a number of unresolved OIG recommendations that pertain to three Single
Audits of the Commonwealth of Puerto Rico Department of the Family for FY ending 2006, 2007,
and 2009 (A-77-09-00011, A-77-09-00012, A-77-11-00013). The NYCD recently became aware
of a fourth Single Audit that covered FY 2008 and was issued on June 2011 (A-77-11-00012).



                                              D-1
During this two-year period, the PRDF failed to take corrective action on a number of findings that
deal with accounting records, personnel file and payroll test, period of availability of federal funds,
payroll costs claimed for federal reimbursement, and financial reporting. In their responses, the
PRDF has shown inadequate corrective action, stating that findings were addressed partially or that
prior findings still prevail. Although numerous notices requesting the PRDF to comply with federal
standards have had little impact, we will continue to work with your office and the Office of
Disability Determinations to find an effective resolution.

If your staff has any questions, they may call Joseph Cafaro, Director of CD, at (212) 264-7250, or
Jose Colon, Deputy Director in the CD at 212-264-7252.


                                                  /s/
                                                  Beatrice M. Disman




                                                D-2
                                       Appendix E

Puerto Rico Department of the Family
Comments
E-1
E-2
E-3
E-4
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager, Denver Audit Office

Acknowledgments

In addition to those named above:

   Clara Soto, Senior Auditor

   Warren Wasson, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-11-01132.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
